TN

2311 Douglas Street CS ICKL E s E-Mail Address:

Omaha, Nebraska 68102-1214 contact@cocklelegalbriefs.com
Est. 1923

Web Site
www.cocklelegalbriefs.com

 

Fax: (402) 342-4850
No. 21-194

CALIFORNIA TRUCKING ASSOCIATION, INC.,, et al.,
Petitioners,
v.
ROBERT BONTA, IN HIS OFFICIAL CAPACITY
AS THE ATTORNEY GENERAL
OF THE STATE OF CALIFORNIA, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF FOR NATIONAL
MOTOR FREIGHT TRAFFIC ASSOCIATION, INC., AS AMICUS CURIAE SUPPORTING
PETITIONERS in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point
for the footnotes, and this brief contains 3653 words, excluding the parts that are exempted by

Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 30th day of August. 2021.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska &v 2 Z i,
RENEE J. GOSS 9 baa tO) ™
‘My Comm. Exp. September 5, 2023 =

Affiant 41384

  
   

 

 

Notary Public
